The United States Supreme Court
LISA GINDI - againstPetitioner / Moving Party Affidavit of Service
NEW YORK CITY DEPARTMENT OF
EDUCATION

Defendants/Appellees

THOMAS BENNETT, ET AL

Defendants

John Guyette, Zachary Shapiro New York City Law Department-Counsel
Oriana Vigliotti- NYSUT counsel.

Respondents

I, Lisa Gindi, declare Pursuant to 28 U.S.C. 5 1746 and subject to the penalties of perjury that on
December 24, 2019 in Washington DC. My Writ of Certiorari, 3 Appendix booklets, labeled
Roman Numeral I, II and III, payment via check, and Certificate of Compliance is included in an
enclosed, first class postpaid properly addressed wrapper, in a post office/official depository
under the exclusive care and custody of the United States Postal Service, within the State of
New York, directed to the defendant's respondent, Mr. Guyette and Mr. Shapiro, and, Ms.
Vigliotti, the addresses set forth below, being the address designated for said defendant for that
purpose: NYC Law Department, 100 Church Street New York NY 10007, and, NYSUT, 52
Broadway Fl 9, New York, NY 10004.
"I declare (or certify, verify, or state) under penalty of perjury that the foregoing is true and
correct. Executed on (date),

7,1 Z ( 2-6 '20

Respectfully,

(DYL(S
111

-t-

NOTERY
Dated

a/

/02060

Dated

2- 2-Z, u) 2-0
R CE1 ED

Lisa Gindi.

75-25 153rd Street,

Flushing, New York 11367

New

rkFEB

2 8 2020

OFFICE OF THE CLERK
SUPREME COURT U.S.
PA
NOTARY PUBLIC-STATE OF NEW YORK
No. 01RA6271544
Qualified In Queens County
My Commission Expires 11-05-2020

1 • •

